<html>
<title> - THE STATE OF THE SMITHSONIAN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                      THE STATE OF THE SMITHSONIAN

=======================================================================

                                HEARING

                               before the
                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2015

                               __________

      Printed for the use of the Committee on House Administration


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
                                  ______

                       U.S. GOVERNMENT PUBLISHING OFFICE 

 95-907                       WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                            
   
   
   
   
   
   
   
   
   
   
   
   
   
                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
RICHARD NUGENT, Florida                Ranking Minority Member
RODNEY DAVIS, Illinois               ZOE LOFGREN, California
BARBARA COMSTOCK, Virginia           JUAN VARGAS, California
MARK WALKER, North Carolina

                           Professional Staff

                       Sean Moran, Staff Director
                 Kyle Anderson, Minority Staff Director

 
                      THE STATE OF THE SMITHSONIAN

                              ----------                              


                        WEDNESDAY, JUNE 17, 2015

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:30 a.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
(chairman of the Committee) presiding.
    Present: Representatives Miller, Harper, Davis, Walker, and 
Vargas.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Bob Sensenbrenner, Deputy General 
Counsel; John L. Dickhaus, Legislative Clerk; Erin McCracken, 
Communications Director; Mary Sue Englund, Director of 
Operations; Cole Felder, Counsel; Kyle Anderson, Minority Staff 
Director; Matt Pinkus, Minority Senior Policy Advisor; Khalil 
Abboud, Minority Deputy Staff Director/Director of Legislative 
Operations; Mike Harrison, Minority Chief Counsel; and Eddie 
Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for today's hearing on the Smithsonian 
Institution.
    We appreciate Acting Secretary Horvath coming with all of 
his staff. We appreciate them bringing him.
    Before I make my opening statement, let me just say I think 
we have all had an opportunity to look at some of the coolest 
things here. As you see, this is a bit unusual for a committee 
hearing to have Smithsonian artifacts here, but everyone will 
get a chance after the hearing to take a look at them all.
    They are really unbelievable. I mean, you have got some 
meteorites here--sort of makes you think of Jurassic Park or 
something, right?--and the first artificial heart, a picture 
that the Smithsonian was just telling me they got off of eBay, 
actually, of Harriet Tubman, which they apparently had to do 
almost nothing to. It was in such great condition. Somebody 
took a lot of pride in keeping that picture.
    Everyone will have a chance to take a look at some of these 
artifacts, but we thought it would be a way to sort of set the 
stage, if you will, for what goes on at this unbelievable 
national treasure of the Smithsonian. In fact, I told some of 
your staff, when I leave here, I am going to try to get a job 
at the Smithsonian. It is such a cool thing. I am kidding. But, 
wow, really, really amazing.
    Today we are holding this hearing to discuss the current 
priorities of the Smithsonian Institution as well as challenges 
and opportunities on the horizon.
    Congress established the Smithsonian Institution in 1846 to 
carry out the will of English Scientist James Smithson. 
Smithson sought, quote, ``to found at Washington, under the 
name of Smithsonian Institution, an establishment for the 
increase and diffusion of knowledge,'' unquote.
    Since that time, the Smithsonian has developed into the 
largest museum and research complex in the world, with 19 
museums, 9 research centers and, of course, the National Zoo. 
The Smithsonian's collections include more than 138 million 
items which form the basis for the Institution's exhibits, 
educational programs, and research activities.
    Last year more than 28 million people visited Smithsonian 
museums and the National Zoo, 99 million viewed their Web site, 
and more than 6,000 volunteers joined 6,300 employees to 
accomplish the work of the Institution.
    The Smithsonian is much more than our Nation's attic. It 
plays an important role in collecting, preserving, and making 
accessible our Nation's history and culture as well as 
advancing critical scientific discovery and research.
    And while the Institution encompasses the renowned museums 
on the National Mall, which all of our constituents appreciate 
visiting at absolute zero cost, it also includes research 
facilities in Panama, an astrophysical observatory in 
Massachusetts, traveling exhibits at affiliated museums across 
the U.S., and a strong international presence across the globe.
    The size and scope of the Smithsonian presents enormous 
opportunities to achieve their mission of continually 
increasing the reach of knowledge. This Committee commends the 
Smithsonian for their unrelenting effort in identifying those 
future opportunities.
    One major opportunity for the Smithsonian is to leverage 
their collections to enhance education and to inspire lifelong 
learning. Education is fundamental to the Smithsonian's mission 
and certainly one of the most important services the 
Institution can provide.
    The Committee is very interested to hear how the 
Smithsonian is revitalizing education, especially in the case 
of increased digital access for schools through 3-D printing, 
and plans for expanding those activities. There are also 
significant challenges in managing such a complex entity as the 
Smithsonian.
    One ongoing challenge is to serve as stewards of their vast 
collection, which includes priceless objects of immense 
historical, cultural, and scientific value, and which range in 
size, scope, and diversity from the smallest organisms and 
insect specimens to various artwork mediums and live animal 
exhibits. The Smithsonian collections are fundamental to 
achieving the Institution's mission now and in the future.
    This Committee held a hearing last Congress, and we heard 
from the then-Smithsonian Inspector General who identified 
collection stewardship as one of the most pressing issues for 
the Smithsonian. Management indicated work was ongoing to 
improve current collections management and to plan for the 
future. So we look forward to hearing about that progress.
    In addition to collections stewardship and education, we 
would like to receive an update on how the Institution is 
preparing for the National Museum of African American History 
and Culture and that opening, which is targeted for completion 
next year, I believe, and about a recent announcement as well 
regarding the Smithsonian exhibition space possibly being part 
of a cultural complex in London.
    The Smithsonian Institution is cherished by all Americans, 
and each of us feels a personal responsibility to ensure the 
success of this valued institution and its continued operation 
for future generations. The Smithsonian is truly one of the 
great treasures of our Nation and the world, and we look 
forward to the Institution's continued service.
    So, again, we thank our witness for his attendance. I will 
formally introduce him in just a moment.
    Our ranking member, Mr. Brady, was not able to attend, and 
I would like to recognize Mr. Vargas, the gentleman from 
California, who represents him today, for his opening 
statement.
    Mr. Vargas. Thank you very much, Madam Chair. Again, I want 
to thank you for holding--I think that my microphone is having 
some feedback problems or issues here. There you go. I 
apologize for that.
    Again, thank you, Madam Chair. I appreciate the opportunity 
to be here and thank you for holding this oversight hearing 
today and for giving the Smithsonian a chance to show off some 
of its treasures earlier this morning, as you were noting. So, 
again, thank you very much for that.
    This is a period of rising expectations for the Smithsonian 
Institution. A new Secretary will arrive in a few weeks, and 
the Smithsonian African American museum will open in less than 
a year from now. And, by the way, it is magnificent. Every time 
I drive or walk by there I get very excited. It really is 
looking magnificent.
    Also, an historic national campaign in raising a record 
amount of private funds for the Institution and a museum of 
American Latino within the Smithsonian has been recommended by 
a national commission that will be reviewed by our Committee 
this year.
    A proposed national women's history museum is about to be 
studied by another commission, and the visitors' advanced 
levels at the Smithsonian museum are on the rise.
    The value of the Smithsonian endowment is at a record high, 
and the cost of admission of the American people is still zero.
    I commend Acting Secretary Horvath--again, thank you very 
much--for your ability to step in quickly and to assure the 
continuity during the period between Secretary Clough's 
departure and Dr. Skorton's transition out of Cornell 
University.
    This is a busy season for our constituents who visit the 
Smithsonian during the warmer months, and we often hear from 
them how much they enjoyed the experience.
    I have to say that I was able to go recently to the 
National Portrait Gallery and was very excited to see the 
Athenaeum, Gilbert Stuart's magnificent painting of George 
Washington, and also to see the Landsdowne. And my 
understanding is the Landsdowne is about to go in for some 
needed work.
    But it was very exciting to see those two magnificent 
paintings there, although I believe the Athenaeum is shared 
with the Boston museum. I think it is half and half. I think 
that is the deal.
    But, again, I welcome you here to this hearing. It is such 
a joy to have you here. We are very, very proud of your 
Institution and the work that all of you have done.
    Thank you very much, Madam Chair. I yield back.
    The Chairman. I thank the gentleman.
    Do any other members wish to make an opening comment or 
statement? Okay.
    At this time I would like to introduce our witness. Albert 
Horvath became the Acting Secretary of the Smithsonian on 
January the 1st of this year following the retirement of 
Secretary Wayne Clough. He will serve in this position until 
the end of this month.
    We had an opportunity to have you in our office last week. 
You said it was a very fast-paced last several months, very 
eye-opening, and interesting. But, as was mentioned, David 
Skorton will take over as the 13th Secretary of the Smithsonian 
on July the 1st.
    As Acting Secretary, Mr. Horvath oversees the thousands of 
staff members and multiple projects that are underway within 
the Smithsonian Institution.
    Before becoming the Acting Secretary, he was the Under 
Secretary for Finance and Administration and Chief Financial 
Officer of the Smithsonian, where he managed administrative 
offices, including facilities and maintenance, human resources, 
security, and financial operations. We are happy to say that 
that is the position that he will be returning to as well 
following his tenure as Acting Secretary.
    Before coming to the Smithsonian in 2011, his career 
spanned more 30 years in the administration at five different 
universities and the Mellon Bank. So we certainly thank the 
Acting Secretary for being with us today.
    At this time we recognize you for your statement, sir.

    STATEMENT OF ALBERT G. HORVATH, ACTING SECRETARY OF THE 
                    SMITHSONIAN INSTITUTION

    Mr. Horvath. Thank you very much. Chairman Miller and 
members of the Committee, thank you for this opportunity to 
testify this morning.
    In 1846, Congress established the Smithsonian as a public-
private partnership dedicated to the increase and diffusion of 
knowledge. Roughly 60 percent of our annual funding comes from 
Federal appropriations, 40 percent from philanthropy and other 
sources.
    The Federal commitment provides the critical foundation for 
all that we do and is helpful in attracting private support. We 
are grateful for the continued confidence of the 
administration, the Congress, and the American people.
    I assure you that the confidence is more than justified. 
The state of the Smithsonian is strong. We are making great 
progress and will welcome our 13th Secretary on July 1, Dr. 
David Skorton, currently president of Cornell, who will push 
for even more progress.
    Since January 1, I have been privileged to serve as Acting 
Secretary. Upon Dr. Skorton's arrival, I will return to my 
previous post as Under Secretary for Finance and Administration 
and Chief Financial Officer.
    I will do so firmly convinced that the Smithsonian is more 
efficient and entrepreneurial than ever. It is also more 
effective in offering close-up authentic experiences of what it 
means to be an American.
    For example, on May 8, I stood atop our American History 
Museum to witness the World War II flyover celebrating Victory 
in Europe Day. I am sure many of you saw the historic planes 
flying over the National Mall.
    Our National Air and Space Museum director, General Jack 
Dailey, participated. The former Assistant Commandant of the 
Marine Corps was in the P-51 Mustang in the formation that 
executed the missing man maneuver.
    The next day some of the participating planes were on 
display at our Air and Space Museum's Steven F. Udvar-Hazy 
Center for all to see. The Center also houses, among many 
treasures, the Space Shuttle Discovery, which flew over the 
National Mall 3 years ago.
    Online, we offer a three-dimensional scan of the Wright 
Flyer that any teacher, student, or lifetime learner can 
download free of charge.
    As I looked west that day, I saw our National Museum of 
African American History and Culture rising out of the ground. 
Museum curators have collected more than 33,000 artifacts, 
including the Spirit of Tuskegee airplane. The museum is 
targeted to open in the fall of 2016.
    We continue to implement our 2010 strategic plan that 
focuses on our four grand challenges. We have an ambitious 
agenda. The first phase of the renovated west wing of our 
American History Museum reopens on July 1. The Smithsonian 
American Art Museum's Renwick Gallery reopens on the November 
13 after significant revitalization.
    We can offer so much to so many people because the 
Smithsonian is the largest museum and research complex in the 
world with passionate professionals and volunteers devoted to 
their work.
    We have 19 museums and galleries, 20 libraries, 9 research 
centers, the National Zoo, and 201 affiliate museums in 45 
states, Puerto Rico, and Panama. We are open 364 days a year 
and admission is free. We operate in more than 130 countries.
    If you can't come to us, we are coming to you through 
digital technology. Our more than 200 Web sites attract 100 
million unique visitors.
    We have 6.6 million followers on Facebook and Twitter 
alone. Last year our museums and galleries had almost 27 
million visits and another 4.5 million people visited our 
traveling exhibits in all 50 States.
    Our collections total 138 million objects, including 127 
million scientific specimens, 340,000 works of art, 2 million 
library volumes, more than 2,000 live animals, and much more. 
Some of those treasures you see on the table in front of you.
    We protect and present some of the Nation's greatest 
treasures, everything from the Star-Spangled Banner to the Hope 
Diamond, the Landsdowne portrait of George Washington to the 
skeleton of T-Rex, Edison's light bulb to Nat Turner's Bible. 
We take stewardship of these treasures very seriously, as 
reported to this Committee 2 years ago.
    Since that time, we have made many improvements and 
completed an in-depth study of collection space needs that will 
inform our long-term capital plan.
    Our 500 scientists are making important discoveries, 
especially regarding biodiversity issues through our ForestGEO, 
or Global Earth Observatories, network. It is a worldwide 
partnership monitoring the health of 6 million trees in 24 
countries.
    Our new Tennenbaum Marine Observatories initiative, or 
MarineGEO, seeks to replicate that success and assess the 
health of coastal areas and the oceans.
    We offer American, Asian, and African art. We deliver 
educational materials to students and teachers in all 50 
States. More than 2,000 learning resources, all tied to State 
standards, are available online for free.
    For 30 years our Smithsonian Science Education Center has 
been improving K through 12 education in our Nation's schools 
through its innovative STEM program.
    We do have concerns about the age and upkeep of our 12 
million square feet of facilities, particularly at our Air and 
Space Museum, our zoo, our Freer Gallery of Art, our Arts and 
Industries Building, The Castle, and other sites. We will need 
your continued support in those areas to ensure the vitality of 
these spaces, many of which are historic.
    Our 6,400 dedicated employees and 5,500 generous volunteers 
are creative, resourceful, and dedicated to our mission. That 
is why for the fifth year in a row the Smithsonian was ranked 
as one of the best places to work in the Federal Government. 
All of us are honored to be part of this great American 
Institution.
    As we face both exciting new opportunities and imposing 
challenges, we will carefully steward the critically important 
resources provided by the Federal Government.
    Again, I thank you for this opportunity, and I look forward 
to your questions.
    [The statement of Mr. Horvath follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much. I appreciate that.
    You mentioned that you had 138 million artifacts. As you 
may or may not know, the Miller family has a bit of history 
with one of those 138 million.
    My husband, who was a fighter pilot in Vietnam over 30 
years ago, delivered an F-100 Super Saber Jet, which is on 
display there now at Udvar-Hazy. So all the old fighter pilots 
like to hang around and look at old jets, that is for sure, and 
remember the glory days there.
    At any rate, my first question for you is really--I was 
looking through your strategic plan here. As you mentioned, you 
really want to increase and revitalize education, I have a 
particular interest in that, as I think I mentioned to you when 
you were in my office.
    Southeast Michigan, where I come from, was really so 
incredibly hard hit during the very painful economic 
transition, our kids could hardly even get on a bus to take a 
field trip anywhere.
    One of the things we really tried to do during that time--
many of us in some of these areas--was to just make sure that--
with this fantastic wealth of knowledge and all of these things 
that are happening, whether it is the Library of Congress or 
the Smithsonian, et cetera, how we can have resources for the 
teachers to make that part of the curriculum.
    You know, kids are so used now to accessing everything 
electronically, and as you mentioned about these 3-D printers, 
they really are amazing, what they are doing in the schools.
    So could you talk a little bit about that part of your 
revitalizing education portion of your strategic plan and how 
you can help with education throughout the entire country here, 
really making sure that kids have access to all of these 
fantastic avenues of knowledge.
    Mr. Horvath. Certainly. The Smithsonian, at its core, is an 
educational institution. We have these wonderful objects. We do 
tremendous research. But one of our main objectives is to be 
able to get this information out as broadly and widely as 
possible.
    We have had a long tradition of education being an 
important aspect of what we do. As mentioned, for 30 years, 
through the Smithsonian Science Education Center, we have been 
providing science curriculum free of charge throughout the 
country tailored to local standards for teachers, for students, 
for school districts. We feel it is important to try and help 
address the issues of STEM education and the like across the 
country.
    A place where a couple of our priorities in the strategic 
plan come together is education and digitization. So one of the 
buzz phrases that we have developed at the Smithsonian is, ``If 
you can't come to the Smithsonian, we want to get the 
Smithsonian to you,'' and one of the strategies to do that is 
through digitization.
    So all of these wonderful objects that we have, we are 
trying to digitize all of them, make them available to people 
across the country, in fact, across the world, for students, K 
through 12, higher education, lifelong learners, and provide 
these objects so that they can be studied and worked with in 
classrooms across the U.S. and not only in our spaces in 
Washington, D.C.
    We are working on 3-D printing so that not only can you 
render 3-D objects online, but then also transfer them to 
printers and have your students create their own models of the 
Wright Flyer or the Space Shuttle. We are, in fact, in the 
middle of digitizing the Space Shuttle at this time.
    So all of these activities and many, many more we are 
focused on, again, to try to continue to play an important role 
in furthering education across the country.
    The Chairman. Could you tell us a little bit--I guess the 
National Zoo has, really, your most visitors and you have more 
visitors there than any of your other facilities. But among the 
museums, it is the Air and Space, I believe, that has the most 
amounts of visitors. But at any----
    Mr. Horvath. Air and Space and Natural History always are 
neck and neck.
    The Chairman. Neck and neck. Okay.
    Well, I understand that sort of the outer envelope, if you 
will, of the Air and Space is in need of some serious 
structural repairs. Maybe you could tell us a bit about how you 
are planning for that and what we need to be aware of here.
    Mr. Horvath. Certainly. We have a long-term capital plan. 
We have, as I mentioned, 12 million square feet of space. And 
so keeping those buildings vital and functional is an important 
priority for us.
    A renovation of the building systems of Air and Space has 
long been in our plan, and we had envisioned it being our next 
big priority following the completion of the National Museum of 
African American History and Culture.
    As we began the process of assessing the work that we would 
need to do in our feasibility study, we unfortunately uncovered 
the fact that the outer envelope, the facade that is comprised 
of Tennessee pink marble, is actually thinner in size than it 
should have been. And, unfortunately, after 40 years of wear 
and tear, it is starting to crack and bow.
    We have now had three independent assessments by experts, 
and they have all concluded that that stone needs to come down 
and be replaced. It is just too thin to be repaired. And so all 
of that stone will need to be replaced. That is in addition to 
the other work that we had contemplated we would need to do 
anyway, like upgrading our air handling systems, completing 
repairs on the roof and the like.
    The building opened in July of 1976. It was built with a 
notion that we would receive about 3 million visitors a year. 
We now receive about 6 or 7 million. So it has received a lot 
more wear and tear than was envisioned. And, obviously, our 
knowledge about what it takes to maintain precious and delicate 
objects like this has advanced as well.
    And so, unfortunately, we are looking at a price tag of 
probably $500 million to fully renovate that building. It is a 
project that we are currently in the process of designing. We 
would hope to begin the renovation work sometime in 2017.
    And our plan is to try during the course of that renovation 
to keep portions of the building open to the public because, 
again, since it is one of the most heavily visited museums in 
the world, we don't want to take all of those objects offline 
if we can possibly avoid that.
    The Chairman. Wow. That is a huge price tag.
    Mr. Horvath. Yes, it is.
    The Chairman. Okay. I appreciate that.
    The chair recognizes Mr. Vargas for questions.
    Mr. Vargas. Thank you very much, Madam Chair.
    Madam Chair, I can't help but get excited when you talked 
about your family's involvement with the Smithsonian. I would 
be remiss to say that, in San Diego, we have affiliated 
museums. We also have the San Diego Air & Space Museum that is 
affiliated with the Smithsonian.
    And it is the same thing there. You get a lot of the 
pilots. They not only hang around there, but they also teach 
the kids how to work on planes and how to repair them, create 
them. And it is really exciting. I have had a chance to go 
there a few times, and they really do a great deal.
    So I would be remiss if I didn't thank the Smithsonian 
because I think there is four or five institutions, actually, 
in Balboa Park that are affiliated with the Smithsonian.
    When you are talking about, if the citizens can't come to 
the Smithsonian, the Smithsonian will come to them, I know that 
you do that with affiliated museums. And we appreciate that 
certainly in San Diego and, I am sure, throughout the country.
    I do want to ask a couple of questions. Does the 
Smithsonian have a public position on the creation of a 
potential museum, a American Latino museum? And if Congress 
were to authorize it, could the Smithsonian absorb the work 
involved with the project?
    Mr. Horvath. Should Congress authorize and approve funding 
for a Smithsonian American Latino museum, we would be honored 
to add such a museum to our portfolio and we would do 
everything in our power to do an exceptional job in delivering 
the museum to the American people.
    Mr. Vargas. Thank you.
    Same question. What effect has sequestration had on the 
Smithsonian's operations over the last few years, if any?
    Mr. Horvath. The budgetary uncertainty around the Federal 
budget has certainly forced us to do a lot of scenario planning 
and rethinking about priorities and potential new programs.
    We were able to weather the sequestration that was 
implemented a couple of years ago because we had done a lot of 
preparation. But we knew, if there were long-term and 
additional reductions made, we would have to fundamentally 
rethink some of the basic operating premises of the 
Institution.
    As you might imagine, given some of our facilities' 
challenges, like the one I just mentioned previously, we are 
obviously keenly aware of how important continued strong 
Federal funding will be for us to not only deal with some of 
those more acute problems, but to allow us to continue to push 
forward in terms of digitization, collection care initiatives, 
expansion of education programs and the like.
    So, at present, we continue to develop a number of 
different strategies, depending on the levels of funding. We 
have also spent quite a bit of time and effort to ensure that 
our ability to raise non-Federal funds, private funds through 
philanthropy, through sponsored project support and other 
means, is as advanced and as effective as possible.
    Mr. Vargas. Thank you.
    By the way, a little pet peeve of mine. Sequestration. I 
wasn't here when they voted on it. But it comes from the Latin 
term ``sequi,'' to set aside.
    That is why you sequester a jury. It doesn't mean across-
the-board cuts. But, anyway, that is just a little pet peeve of 
mine. I don't know why they use that term. But, anyway, it is 
the term they chose.
    We are all very excited, all of us, about the opening of 
the National African American museum next year. Are there any 
special events planned around it that the public should be 
aware of?
    Mr. Horvath. We are in the midst of planning for the grand 
opening of the museum next fall. And so we are at the early 
stages. We intend to begin doing some preliminary kinds of 
events leading up to that. The museum itself is not waiting for 
the building to be finished.
    We just opened a new exhibit in American History to begin 
showing some of the collection that has been amassed over the 
course of the last several years called ``Through the African 
American Lens.'' And I would encourage everyone who has an 
opportunity to go and see it.
    And so, in expectation of the museum opening and not just 
generating excitement from the seemingly day-to-day changes 
that take place in the construction, we are trying to do 
programming and the like to get people excited and ready for 
the opening of the museum.
    Mr. Vargas. Okay. I am out of time. My time is up. And, 
again, thank you, Madam Chair. I appreciate it. I yield back.
    The Chairman. Thank you.
    Mr. Harper from Mississippi.
    Mr. Harper. Thank you, Madam Chair.
    And thank you for your service in such an important role. I 
have to say, last night, I hope everyone got to go to the 
Congressional Night at the National Portrait Gallery. It was an 
incredible location and very well done. So thanks to all that 
were involved in that.
    Now, there is always concern on the upkeep of buildings and 
making sure that we don't defer maintenance. That happens 
sometimes just because the money is not there.
    And I know we have a new museum that has been talked about 
that will open next year, a very exciting time. There are 
others that are being discussed.
    But there is also a concern that, as we go forward and we 
build new museums, that we have the ability to maintain them 
and do the upkeep and maintenance. So this is going to be a 
major lift.
    But, as far as families, the Air and Space Museum is one 
that everyone likes to go to. And it is very special because 
there is a plane there from my congressional district, from 
Meridian, Mississippi, the Key brothers' airplane called the 
``Ole Miss,'' for which they set the record for longest time in 
the air, 27 days, back in 1935.
    And their partner, mechanic, inventor, and friend, Mr. A.D. 
Hunter, invented the shutoff valve so you could safely transfer 
the fuel, which even today, with just some minor modifications, 
is still what is used today.
    And you have got this single-engine plane that they stayed 
in for 27 days with a catwalk built around it because they had 
to climb out and service the engine during flight.
    So during construction we are confident that will be fully 
displayed. But, anyway, that is another deal there. But it is 
true. Every exhibit has a great story. And so we are very 
thankful for that and those opportunities that are there.
    How do you foresee going forward--and I know Chairman 
Miller discussed this. You are planning on keeping this open, 
at least in part, during those construction years. How many 
years will that Air and Space renovation take place?
    Mr. Horvath. We are still in the midst of very detailed 
design and planning. Right now our best estimate is it will 
take about 4.5 years of renovation time, and we will try to do 
it in phases through the building.
    It is a little complicated because all of the building 
systems are integrated, but that is part of the challenge of 
what we are trying to study at this point.
    So, again, it is very, very important for us to try as much 
as possible to keep portions of that building open so that our 
visitors can continue to benefit from the tremendous artifacts 
that we have.
    Mr. Harper. And other buildings are aging as well----
    Mr. Horvath. Right.
    Mr. Harper [continuing]. And will have those needs as well.
    Is there a plan for which we will make sure that maybe we 
don't wind up with a big hit and maybe you see doing these 
along in stages where we don't wind up with a $500 million one-
time or over-a-few-years major renovation?
    Mr. Horvath. Yes. There are a couple of examples where we 
have been doing that over the last several years. At the 
Natural History Museum, everyone knows the dinosaur hall is 
currently closed. That is partially driven by the desire and 
need to renovate that portion of the building as well as do 
some needed maintenance on the artifacts.
    We have taken the same approach at American History. So 
back in 2008 we reopened the center core of the building, now 
the Star-Spangled Banner hall. We are working on the west side 
of the building and are very excited about reopening the first 
floor of that renovated space in July. And we have taken the 
same approach at the National Zoo.
    So to the extent that, in some of the larger, more complex 
buildings where taking on the entire building would be 
astronomical in terms of cost, we have tried to parse them out.
    In some cases, like at the Air and Space Museum, because of 
the way the building was built, it is just not as practical to 
be able to close portions of it and work on it in various 
points in time.
    One of our biggest challenges is making sure that we 
continue to address the most pressing needs and try to use a 
combination of both maintenance as well as facilities capital 
funding to be as thoughtful as possible and keep our buildings 
in good shape.
    Mr. Harper. And my time is almost over, but let me ask you 
this.
    138 million items, probably more. Not everything we 
probably want to keep. You know, I am a bit of a pack rat; so, 
I don't want to throw anything away.
    But when you are deciding new items to go into the 
collection, if you could just very quickly, is there a basic 
criteria that you have for how that is decided on?
    Mr. Horvath. Certainly. We look at the importance of that 
object to the collection and the particular discipline that it 
supports. We ensure that we can safely and effectively keep it. 
And we also make sure that we have the expertise to study it 
and to tell its story.
    Mr. Harper. So not everything makes the cut, obviously.
    Mr. Horvath. Not everything makes the cut. No.
    Mr. Harper. All right. Thank you very much.
    I yield back.
    The Chairman. Mr. Davis.
    Mr. Davis. Thank you, Chairman Miller. And I wish you well 
on your next endeavor, going to work for the Smithsonian, as 
you mentioned.
    Please, sir, check her references.
    Don't cut my mic, Judge Vargas.
    First off, I want to say thank you, Mr. Acting Secretary. 
My twin boys, who are 14, going into the ninth grade, were part 
of a large high school group that was out just last week and 
enjoyed many of your facilities. Some of the feedback was that, 
obviously, besides hanging out with me, going to the 
Smithsonian was actually one of their favorite activities.
    And it is something that we see many folks and families go 
through every day here. It is what you do on a regular basis. I 
think this Committee--hopefully, today you understand we truly 
appreciate what you do and what the many men and women who work 
at your facilities do on a regular basis to show what our 
Nation is all about. So thank you for that.
    Education was a key point of your opening testimony. And I 
noticed you mentioned some of the STEM programs, that the 
Smithsonian works with school districts throughout this Nation, 
especially K through 12 education.
    Can you actually go into a little further what you do at 
the Smithsonian to ensure that our students who may not be able 
to make it out here to Washington, D.C., or to other facilities 
in the Nation--how do they have access to your facilities? And 
how do your STEM programs work? And, also, how do teachers who 
may not be involved with them know how to contact you to get 
involved?
    Mr. Horvath. We have tremendous educational resources at 
the Smithsonian, some attached to the specific museums or 
research centers, some that are coordinated in more central 
ways.
    One of our big initiatives across the board and, of course, 
in education is to take what we have and get it to folks, 
regardless of where they are geographically throughout the 
country.
    So the Smithsonian Science Education Center for 30 years 
has been putting together curriculum that is tied to State 
standards that teachers in school districts can implement and 
use to teach science to kids from K through 12. It is hands-on 
learning and it is supplemented by a number of lesson plans and 
activities that can be downloaded. All of that material is 
provided for free.
    We have a large Smithsonian traveling exhibition service 
which takes Smithsonian content throughout the country. And so, 
at many museums, large and small, across the country you can 
benefit from the same kind of content that you see in 
Washington, D.C., at your local museum throughout the country.
    More and more we are trying to put a lot of our material 
online so that, even if you are not using some of the more 
formal materials that we provide, a teacher can download 
information, and can use a variety of support material that we 
provide to integrate into their classroom.
    So we view education as central to our mission and as a way 
of really enlivening these objects and telling their story and 
using them in a way that helps inspire kids to learn.
    Mr. Davis. Well, I appreciate what you do to make that 
happen, again, for many students who don't get a chance to come 
out here and experience what we see and sometimes take for 
granted on a daily basis.
    What can we do as an institution to help encourage more 
activity, more usage, of your programs?
    Mr. Horvath. I think you are doing it. The more we can 
engage people in our facilities, in our programs, to understand 
the richness, the breadth and the depth of what we do, I think 
together we can learn about places where perhaps we aren't 
filling a gap where we could fill a gap.
    We recognize that we can't do everything, but we believe 
that we can have a significant impact on improving the delivery 
of STEM education throughout the country and in teaching 
history, particularly about the history of the American 
experience and the like.
    Mr. Davis. All right. One last question.
    Do you have an idea--if you can, give me an estimated 
percentage of how many school districts you are putting your 
STEM education program into nationwide.
    Mr. Horvath. I can get you specific numbers as part of the 
final testimony. I don't have those numbers offhand. But we----
    Mr. Davis. That would be great.
    Mr. Horvath [continuing]. Make them available to anyone who 
wants them, and we actively engage with folks across the 
country.
    Mr. Davis. Well, thank you very much for your time.
    Madam Chairman, I am going to yield back so that our star 
pitcher from the congressional baseball game can have time to 
ask questions.
    The Chairman. Thank you very much.
    Mr. Walker, our star pitcher.
    Mr. Walker. Thank you, Ms. Chairman and Mr. Catcher.
    I am fascinated by the Smithsonian over the years, 
something that predates even our Civil War by nearly 15 years.
    I believe you have been there about 5 years. Is that 
correct?
    Mr. Horvath. Four. Yes.
    Mr. Walker. Four years.
    One of the things you talked about--I have got a couple of 
questions I want to get to, but something you brought up I want 
a little bit more information on.
    We talked about the African American museum that is 
opening. What is the open date? Do we have that projected?
    Mr. Horvath. It is fall of 2016. We don't have a specific 
date yet.
    Mr. Walker. Okay. And my question specifically regarding 
that: Exhibits and history there, will we remove those?
    For example, I was just thinking of George Washington 
Carver as you were talking and all the different inventions and 
what an amazing man he was.
    Do we remove that from one Smithsonian to put it--or do we 
duplicate it? Can you talk about that process. Because I don't 
want one missing--one or the other, if you only have time to go 
to one or the other. Do you understand where I am coming from?
    Mr. Horvath. I do.
    Mr. Walker. Okay.
    Mr. Horvath. On a pretty frequent basis, move collections 
around our various museums. So the American Art Museum actually 
tells the story of America through art as opposed to specific 
historic artifacts. So we will sometimes move paintings from 
there to the American History Museum.
    So there will be times when we will move certain objects 
back and forth, depending on the nature of the exhibition that 
is on or the particular story that we are trying to tell. So 
things will move around on a routine basis.
    Mr. Walker. And I appreciate your answer.
    My concern is that we make sure that all students are 
getting a great history from some of the people of ethnic 
backgrounds who have impacted us and that they didn't miss that 
even if they were hitting one and not hitting the other one.
    A lot of technological advances in the last few years. Can 
you discuss strategy as far as connecting the Smithsonian, 
continuing to make it attractive to the younger generation.
    We see so many times in the corporate world--or my 
background is the ministry world--where we don't make the 
adaptations to connect with the next generation.
    Can you talk about that. Is there marketing strategy? How 
do we move forward with that?
    Mr. Horvath. It is a big thrust for us, ensuring that we 
have an institution that appeals to people who look like me and 
people a lot younger, like my son.
    One example of what we have been able to do is the recently 
renovated and reopened Cooper Hewitt Museum in New York. We 
closed that museum for 3 years, fully renovated it, and 
reopened it in December 2014 to great fanfare by integrating 
tremendous amounts of technology into the visitor experience.
    There is a new object called the ``Pen,'' which you can get 
when you walk in the door. And as you go along through the 
various exhibits, you touch a particular part of the exhibit 
and it downloads that object into an account for you, which you 
can then, when you are finished, email to yourself and continue 
to curate your collection when you get home or learn more about 
it because you only had a limited amount of time at the museum.
    We are looking at the African American History and Culture 
Museum as well to integrate making of interactive digital and 
video experiences into the more traditional experience of 
physical objects.
    So we are taking that very, very seriously and looking to--
--
    Mr. Walker. Do you find that as a difficult balance? 
Because you don't want to dumb-down some of the exhibits and 
some of the historical aspects of it, and I guess that is part 
of the process as far as trying to find the right balance. Is 
that a fair assessment?
    Mr. Horvath. I think what we are looking for are 
opportunities to really amplify the objects. One of the latest 
apps that we created in Natural History is called ``Skin and 
Bones.'' It is very cool.
    You take your phone. You look at a particular skeleton, and 
on your phone that skeleton comes to life. And you can see what 
that skeleton looked like when it was on the ground, and it 
does some virtual-reality movement and the like.
    So we think the technology can really enhance the 
experience by giving you a much richer opportunity to dig in 
and to learn more.
    Mr. Walker. I appreciate you guys working hard to be 
proactive in the days ahead.
    Thank you, Ms. Chairman.
    Thank you, Mr. Horvath.
    I yield back.
    Mr. Horvath. Thank you.
    The Chairman. Thank you very much. Talking about skeletons, 
let me just ask you a question here about the Natural History 
Museum, and the T-Rex exhibit. You know, it is too bad you had 
to close the entire dinosaur exhibit down, but I guess I 
understand that.
    But when is it all going to be open again?
    Mr. Horvath. 2019.
    The Chairman. 2019.
    Mr. Horvath. 2019. Yes.
    The Chairman. So you can't open any part of it without all 
of it opening?
    Mr. Horvath. No. All of the renovation that we need to do 
is pretty extensive. It is a fairly large piece of the 
building. And the exhibits themselves, the skeletons and the 
like, are undergoing a fairly sensitive restoration as well. 
That is pretty painstaking work.
    So what we are trying to do, again, through technology and 
other means is to try to satisfy that dinosaur itch that a lot 
of people have because that is one of the most popular 
exhibitions that we have in the Smithsonian.
    The Chairman. Yes. It really is.
    Just one last question and we will conclude the hearing 
here.
    But we have had an opportunity to talk a bit about the 
possibility--I suppose you are going through the process right 
now of looking at the possibility of doing something over in 
London.
    Perhaps you could tell us just a little bit about that so 
we have it on the record that you are looking into the 
process--I know your regents have talked about it a bit--and 
whether or not you think that is something that is a good idea.
    I mean, we have got sort of deferred maintenance on some of 
these other facilities. Should we be doing that? What is the 
reason for that, et cetera?
    Mr. Horvath. Certainly. As you might imagine, we are 
presented with opportunities on a regular basis to do 
interesting things. This opportunity in London was presented to 
us by the Mayor of London about a year or so ago.
    His vision in the redevelopment of the facility that housed 
the 2012 summer games includes the creation of a cultural and 
educational quarter that would be populated with a number of 
cultural and education institutions, and his desire was to have 
the Smithsonian be part of that. It is an interesting idea. It 
certainly is interesting to think about doing something in the 
land of Smithson.
    And early on we considered it and went back to them with a 
certain set of criteria. First, we would need a significant 
amount of financial support in order to do this. Secondly, we 
would not ask Congress for any additional funding to support 
this; so, it would have to be something that would be supported 
by private funding. And we would have to be sure that it fit 
within the mission of the Smithsonian.
    I think we were able to satisfy ourselves on the ``mission-
centricity'' of it. We are a very global entity already. A lot 
of that international work is focused on scientific research. 
This would be the first opportunity for the Smithsonian to be 
able to tell the story of America abroad. So it has a 
tremendous amount of appeal in that way.
    We indicated that we would need to have space provided to 
us. We could not raise funding for that. And the Mayor and his 
team have identified a significant amount of private support 
that would enable that to happen.
    And the final piece of the assessment that we are in the 
midst of right now is really looking at the financial model 
that we would need to implement and whether it would be able to 
sustain us for a long period of time.
    So we are still in the investigative phase. We are excited 
about the prospect. We haven't made a final decision. And, as 
you might imagine, we have been in close contact with Dr. 
Skorton to ensure that his input is part of the overall process 
and that he feels comfortable with the progress or decisions 
that we are making along the way.
    The Chairman. Thank you very much for that. We will want to 
be kept in the information loop as that process goes forward 
certainly, but I think that is a very interesting idea.
    Without objection, I would say that all members will have 5 
legislative days to submit to the chair additional written 
questions for the witness, which we will forward and ask the 
witness to respond as promptly as they can so that those 
answers might be made part of the record.
    We certainly appreciate your attendance here today and 
appreciate your continuing service at the Smithsonian. We want 
to thank, as Mr. Davis said, all of the employees of the 
Smithsonian, some of who are here today.
    You have a tremendous group of dedicated and committed 
individuals that really, really make it all happen there. So we 
certainly appreciate their service as well.
    Without objection, the hearing is adjourned.
    [Whereupon, at 11:20 a.m., the Committee was adjourned.]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
</pre></body></html>
